No. 20-6700
IN THE
SUPREME COURT OF THE UNITED STATES
MELISSA CALABRESE, PETITIONER
vs.
STATE OF CALIFORNIA et. al„ RESPONDENTS

PROOF OF SERVICE
I, M. Kennedy, do swear or declare that on this date, January 31,2021, as required by Supreme
Court Rule 29 I have served the enclosed PETITION FOR A WRIT OF CERTIORARI REPLY BRIEF on each party to the above proceeding or that party's counsel, and on every
other person required to be served, by depositing an envelope containing the above documents
in the United States mail properly addressed to each of them sent Priority Mail and with post­
age prepaid for delivery within 3 calendar days. The name and address of those served are as
follows:
Brobeck West Borges Rosa and Douville LLP
1301 Dove Street Suite 700
Newport Beach, CA 92660-2470
949-208-8070
I declare under penalty of perjury that the foregoing is true and correct.

T

Executed on Jan 31,2021

